              U.S. Department of the Interior
              Office of Inspector General




Fee Demo
Program
Beneficial,
But Could
Be More
Effective



                                              Zion National Park
                                Office of Inspector General Photo


                              Recreational Fee
                        Demonstration Program
                             National Park Service
                       Bureau of Land Management


                             Report No. 2002-I-0045
                                        August 2002
                     United States Department of the Interior

                                      Office of Inspector General
                                           Western Region
                                               Federal Building
                                        2800 Cottage Way, Suite E-2712
                                           Sacramento, California 95825



                                                                                            7430
                                                                                 August 19, 2002

Memorandum

To:            Assistant Secretary for Fish and Wildlife and Parks
               Assistant Secretary for Land and Minerals Management

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Final Report, Recreational Fee Demonstration Program, National Park Service
               and Bureau of Land Management (Report No. 2002-I-0045)

      The attached report presents the results of our review of the Recreational Fee
Demonstration (Fee Demo) Programs of the National Park Service (NPS) and the Bureau of
Land Management (BLM). Our objectives were to determine whether NPS and BLM
(1) ensured that Fee Demo revenues were used properly and supplemented rather than replaced
funding for maintenance and other critical needs and (2) followed required procedures for
safeguarding, depositing, and recording Fee Demo revenues. We focused our review on NPS as
it accounts for the vast majority of the Fee Demo revenues collected for the three Interior
agencies participating in the Fee Demo Program.

      In her May 30, 2002 response, the Director of BLM concurred with our recommendations,
and we consider the recommendations to be resolved and implemented. The June 6, 2002
response from the NPS Director generally concurred with our recommendations, but did not
provide the informa tion necessary for us to consider the recommendations resolved.
Accordingly, we are requesting that NPS provide us with the additional information related to
plans of action, target dates, and officials responsible for implementing the recommendations, as
detailed in Appendix 8 to the report.

      The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all audit reports issued, the monetary impact of audit
findings (see Appendix 1), actions taken to implement our audit recommendations, and
recommendations that have not been implemented. We would appreciate your written response
to this report by September 20, 2002. In your response, please provide the information requested
in Appendix 8.
     We appreciate the cooperation shown by both NPS and BLM staff during our audit. If you
have any questions regarding this report, please call me at (916) 978-5653.

Attachment

cc:   Audit Liaison Officer, Assistant Secretary, Fish and Wildlife and Parks (MS 3156)
      Audit Liaison Officer, Assistant Secretary for Land and Minerals Management (MS 6628)
      Director, National Park Service (MS 3220)
      Director, Bureau of Land Management (MS 5660)
      Audit Liaison Officer, National Park Service (MS 3647)
      Audit Liaison Officer, Bureau of Land Management (MS 1000 L St.), Attn: Jean Fend
      Office of Comptroller, Attn: Jon Shrum (MS-2711)
      Chief, Office of Public Affairs, NPS (MS 3424)
      BLM Assistant Director, Communications (MS 5647)
      Associate Solicitor for Parks and Wildlife (MS 6557)
      Associate Solicitor for Land and Water Resources (MS 6412)
      Associate Solicitor for Mineral Resources (MS-6412)
Executive Summary
Recreational Fee Demonstration Program
National Park Service - Bureau of Land Management
 Background             Congress authorized the Recreational Fee Demonstration (Fee
                        Demo) Program in 1996 to evaluate the feasibility of charging new
                        or increased fees at recreation areas to enhance visitor enjoyment
                        and protect area resources. Four Federal land management agencies
                        are participating in the Program: the National Park Service (NPS),
                        Bureau of Land Management (BLM), and U.S. Fish and Wildlife
                        Service within the Department of the Interior and the U.S. Forest
                        Service within the Department of Agriculture. We reviewed the
                        Fee Demo Programs of NPS and BLM to determine whether the
                        agencies (1) ensured that Fee Demo revenues were used properly
                        and supplemented rather than replaced funding for maintenance and
                        other critical needs and (2) followed required procedures for
                        safeguarding, depositing, and recording Fee Demo revenues. We
                        focused our review on NPS as it accounts for most of the Fee Demo
                        revenues collected for the three Interior agencies participating in the
                        Fee Demo Program. Congress has extended the Program through
                        fiscal year 2004 and given the participating agencies until fiscal
                        year 2007 to spend their Fee Demo revenues. As of September 30,
                        2000, NPS revenues totaled about $459 million, and BLM revenues
                        totaled about $17 million.

 Fee Demo Program       The Fee Demo Programs for NPS and BLM have proven beneficial
 Has Proved to be       both to the agencies and to the visiting public. Our review of
 Beneficial to          17 parks, including Grand Canyon, Yosemite, and Yellowstone
 Agencies and           National Parks, and five BLM recreation areas found that Fee
                        Demo revenues have provided the two agencies with additional
 Visiting Public        funds to undertake many improvement projects that may not have
                        otherwise been possible. These projects include the construction
                        and repair of trails, roads, campgrounds, and facilities;
                        rehabilitation of sewage treatment plants; and stabilization of
                        historic structures, all of which have improved visitor enjoyment
                        and protected resources.

 Opportunities for      Our review also identified opportunities for the two agencies to
 Improvement:           further enhance the benefits of their Fee Demo Programs.

   NPS Could Improve    NPS could complete its Fee Demo projects in a more timely
   Project Completion   manner. As of September 30, 2000, the 17 parks had completed
   Rate                 only about 11 percent (56 out of 522) of their Fee Demo projects,
                        and NPS had used only about half ($231 million) of the
                        $459 million collected. Among the factors contributing to the

                                                           i
                         delays were a time-consuming approval process, a shortage of
                         professional and technical expertise, the lack of a goal for
                         completing projects in NPS’s annual Strategic Plan, project cost
                         overruns, and litigation. While we acknowledge that NPS does not
                         have total control over some of these factors, it could alleviate their
                         adverse effect on project completion. NPS, for example, could
                         approve projects far in advance of fund availability; contract out
                         more of the work for project design, architecture, and engineering;
                         and modify its own restrictions on the kind of staff salaries that can
                         be charged to Fee Demo projects.

 NPS and BLM Could       Both NPS and BLM generally used their Fee Demo revenues to
 Improve Program         meet the intended purposes of the Program. Both agencies,
 Accountability          however, lacked clearly defined goals and objectives for their
                         Programs, accountability standards for managers, and ready access
                         to current and accurate data on Fee Demo projects. The agencies
                         also did not comply with security guidelines over the collection of
                         Fee Demo revenues. We believe that all of these elements are
                         necessary to ensure that Program revenues are used as intended by
                         Congress and as expected by the public.

 NPS Could Improve     NPS also needed improved oversight of its Fee Demo Program to
 Oversight of Fee Demo ensure that project expenditures were appropriately used. We found
 Expenditures          that NPS’s use of at least $2.8 million of Fee Demo revenues was
                       contrary to NPS policy and reduced the revenues available to fund
                       needed Fee Demo projects. We therefore determined that these
                       revenues could have been put to better use (see Appendix 1).

Recommendations          We made six recommendations to improve the completion rate of
                         NPS Fee Demo projects, Program accountability for both agencies,
                         and NPS oversight of project expenditures.

Agency Response          In the May 30 and June 6, 2002 responses to the draft report, the
and Office of            Directors of BLM and NPS generally agreed with and supported the
                         findings of the report and concurred with the report’s
Inspector General
                         recommendations. (Please see Appendix 6 for the NPS response
Reply                    and Appendix 7 for the BLM response.) Based on BLM’s
                         response, we consider the recommendations to BLM resolved and
                         implemented. We have requested that NPS provide us with plans of
                         action, target dates and officials responsible for implementing the
                         recommendations. (Please see Appendix 8 for the Status of Audit
                         Recommendations.)




                                                            ii
Contents
                                                                                                             Page

       Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
          Guidelines for Program Implementation . . . . . . . . . . . . . . . . . . . . . . .                        1
          Congressional and GPRA Reporting Requirements . . . . . . . . . . . . . .                                  2
          Audit Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         2

       Program Has Proven Beneficial . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

       Opportunities Exist for Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
          Improve Rate of NPS Project Completion . . . . . . . . . . . . . . . . . . . . . 5
          Improve Program Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
          Ensure Appropriate Use of Fee Demo Revenues . . . . . . . . . . . . . . . 16

       Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

       NPS and BLM Responses and OIG Reply . . . . . . . . . . . . . . . . . . . . . . . 19

       Appendices
          No.

            1         Classification of Monetary Amounts . . . . . . . . . . . . . . . . . . .                      22
            2         Audit Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . .                   23
            3         NPS Fee Demo Revenues Collected by Park . . . . . . . . . . . . .                             28
            4         NPS Fee Demo Project Selection and Approval
                          Process . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       29
            5         Park Expenditures Not In Compliance With
                       NPS Guidelines . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           31
            6         NPS Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        32
            7         BLM Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          37
            8         Status of Audit Recommendations . . . . . . . . . . . . . . . . . . . . .                     39




                                                            iii
Figures
   No.                                                                                            Page

     1             Interior Agency Fee Demo Revenues . . . . . . . . . . . . . . . . 3
     2             Photo, Entrance Station, Bryce Canyon National
                     Park, Utah . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
     3             Photo, New Visitor Center Restrooms
                     at BLM’s Red Rock Canyon, Nevada . . . . . . . . . . . . . . 4
     4             Photo, West Lake Boardwalk, Everglades
                     National Park, Florida . . . . . . . . . . . . . . . . . . . . . . . . . . 4
     5             NPS Cumulative Revenues, Approved Projects,
                     Obligations, and Expenditures . . . . . . . . . . . . . . . . . . . . 6
     6             Completed Versus Approved NPS
                      Fee Demo Projects . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     7             Photo, Damaged Boardwalk at Mahogany
                     Hammock, Everglades National Park,
                     Florida . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
     8             Photo, Renovated Campground, Mt. Rainier
                     National Park, Washington . . . . . . . . . . . . . . . . . . . . . 10
     9             Photo, Renovated Historic Structure Used as
                      Employee Housing, Yellowstone
                      National Park, Wyoming . . . . . . . . . . . . . . . . . . . . . . 17




Abbreviations

BLM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Bureau of Land Management
Fee Demo . . . . . . . . . . . . . . . . . Recreational Fee Demonstration Program
FWS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. Fish and Wildlife Service
GAO . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . General Accounting Office
GPRA . . . . . . . . . . . . . . . . . . . Government Performance and Results Act
NPS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . National Park Service
OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Office of Inspector General
PMIS . . . . . . . . . . . . . . . . . . . . . Project Management Information System




                                                  iv
Background        Congress created the Recreational Fee Demonstration (Fee Demo)
                  Program1 in 1996 to demonstrate the feasibility of using fees collected
                  from the public to operate and maintain recreation areas and habitat
                  enhancement projects on public land. Under the Program, four
                  Federal land management agencies–National Park Service (NPS),
                  Bureau of Land Management (BLM), U.S. Fish and Wildlife Service
                  (FWS), and U.S. Forest Service–can each charge new or increased
                  fees at the recreational areas they manage.2 The fees provide the
                  agencies with additional revenues to enhance the quality of visitor
                  experiences at the recreational areas and improve the protection of
                  area resources.

                  The Fee Demo Program allows revenues to be used for backlogged
                  repair and maintenance projects, interpretative centers, habitat or
                  facility enhancement, resource preservation, law enforcement relating
                  to public use, and annual operations (including fee collection). In
                  November 2001, Congress extended the Program through fiscal year
                  2004 and allowed the agencies to spend the revenues up through
                  fiscal year 2007. As of September 30, 2000, NPS and BLM had
                  collected Fee Demo revenues of about $459 million and $17 million,
                  respectively.

                  The Department of the Interior’s budget for fiscal year 2002
                  emphasized using Fee Demo revenues for backlogged repair and
                  maintenance projects within NPS to “[make] good” on the
                  Presidential Budget initiative to eliminate the NPS maintenance
                  backlog, estimated at $4.9 billion, within 5 years. The Secretary of
                  the Interior requested that NPS “dedicate $100 million from the
                  Recreation Demonstration fee Program and Concession fee receipts
                  toward [eliminating] these priority deferred maintenance projects.”3

 Guidelines for Both NPS and BLM administer their Fee Demo Programs under the
 Program        broad guidelines provided in the authorizing legislation. NPS,
 Implementation however, developed additional policy in “Program Project Call”
                  memorandums4 and has issued five such memorandums as of

                  1
                   The Program was authorized in Section 315 of the Omnibus Consolidated Rescissions and
                  Appropriations Act of 1996 (Public Law 104-134) and amended by Public Laws 104-208,
                  105-18, 105-83, 105-277, 106-291, and 107-63 [16 USCA, Sec. 460l-6(a) note].
                  2
                   NPS, BLM, and FWS are agencies of the U.S. Department of the Interior. The U.S. Forest
                  Service is an agency of the U.S. Department of Agriculture.
                  3
                   Material cited from the Secretary of the Interior’s fiscal year 2002 budget announcement,
                  dated April 9, 2001. Concession receipts are fees paid by authorized vendors operating
                  within national parks or recreational areas. NPS defines deferred maintenance projects as
                  those involving “maintenance of a facility that was not performed when it should have been
                  or when it was scheduled and which, therefore, was . . . delayed for a future period.”
                  4
                   Each Program Project Call memorandum requested parks to submit project proposals for
                  funding with Fee Demo revenues and included Program guidelines for expenditures,
                  accounting, and reporting.

                                                               1
                December 2001. Under NPS policy, parks were directed to consider
                Fee Demo revenues as supplemental to appropriated funds.
                Specifically, the revenues were to be kept separate from recurring
                operations and were to be used primarily for funding (1) non-
                recurring maintenance needs, (2) infrastructure repair, (3) resource
                management projects, and (4) the cost of fee collection at
                participating parks. The revenues could not be used to offset the
                salaries of any existing park staff, hire permanent staff (except for
                positions involved in the direct collection of fees)5 or fund any
                employee housing projects.

Congressional   To help gauge the success of the Fee Demo Program, Congress, in
and GPRA        1997, asked the agencies to report on Fee Demo revenues collected,
                projects to be completed, and backlogged projects. In addition, the
Reporting       agencies are to report on lessons learned and suggest Program
Requirements    improvements. NPS and BLM also report to Congress under the
                Government Performance and Results Act (GPRA) of 1993 (Public
                Law 103-62),6 which requires that Federal agencies focus on the
                results of their programs and the quality of service provided to the
                public. Section 2(b) cites one of the Act’s purposes as improving the
                “confidence of the American people in the capability of the Federal
                Government by systematically holding Federal agencies accountable
                for achieving program results.” To comply with GPRA, agencies
                must establish goals and objectives for measuring program results and
                report annually on how well these goals are met. In our opinion,
                measurable results for the Fee Demo Program should be based on the
                degree to which the agencies use the revenues collected to complete
                projects that enhance visitor satisfaction and protect resources.

 Audit          We conducted our audit to determine whether NPS and BLM
                (1) ensured that Fee Demo revenues were used properly and
 Objectives     supplemented rather than replaced funding for maintenance and other
                critical needs and (2) followed required procedures for safeguarding,
                depositing, and recording Fee Demo revenues. During our review,
                we noted that NPS had experienced delays in completing Fee Demo
                projects and expanded our objectives to consider this issue. The
                scope and methodology of our review, including the sites visited and
                prior audits reviewed, are detailed in Appendix 2. We concentrated
                our efforts on the NPS Fee Demo Program because NPS accounts for
                the vast majority (94 percent) of the revenues collected by the
                participating Interior agencies, as shown in Figure 1. See Appendix 3
                for the revenues collected.


                5
                 NPS did not want to fund any permanent positions with Fee Demo revenues because the
                Program was temporary and any permanent staff hired with these revenues may have to be
                released or the positions funded with annual appropriations.
                6
                 5 USC, Sec. 306 and 31 USC, Sec. 1115 & 1116.

                                                           2
                                                                                 $138.5       $141.4        $133.6

                                            $160
                                            $140

                                            $120




                            $ in Millions
                                                                     $45.1
                                            $100
                                             $80
                                             $60
                                             $40                                                                       NPS
                                                                  $0.4          $3.9
                                              $20                                             $5.1
                                                                                                            $7.4     BLM
                                                           $0.6          $3.1
                                               $0                                      $3.4
                                                    1997                                             $3.4     FWS
                                                             1998
                                                                             1999
                                                                                          2000
                                                      Fiscal Year



                                                                                                        Interior Agency
                                                                                                     Fee Demo Revenues
                                                                                                                     Figure 1

Program Has         The Fee Demo Program has proved to be beneficial to both NPS and
Proven Beneficial   BLM and to the public visiting participating recreation areas. The
                    Program has provided both agencies with additional funds to address
                    critical maintenance needs and to undertake projects that may not
                    have otherwise been possible to enhance visitor enjoyment and
                    protect resources. During our review, NPS and BLM employees and
                    visitors alike commented favorably on the positive benefits of the
                    Program.

                    NPS and BLM have used Fee Demo revenues to make many
                    necessary and useful improvements and to protect natural resources.
                    Fee Demo projects have included newly constructed entrance stations
                    (Figure 2), restrooms (Figure 3), and visitor centers; renovated
                    campsites; repaired roads, trails, and boardwalks (Figure 4);
                    rehabilitated sewage treatment facilities; stabilized historic buildings;
                    and updated interpretive displays and signage.




                                                                         3
  Entrance Station, Bryce
  Canyon National Park,
  Utah, OIG Photo
  Figure 2




New Visitor Center
Restrooms at BLM’s Red
Rock Canyon, Nevada,
OIG Photo
Figure 3




West Lake Boardwalk,
Everglades National Park,
Florida, OIG Photo
Figure 4




                            4
Opportunities      Both NPS and BLM have generally done a good job in managing their
                   Fee Demo Programs. Fee Demo expenditures were generally
Exist For          reasonable and appropriate and used for the intended purposes of the
Improvement        Program. However, we did identify opportunities to enhance Program
                   benefits. A primary concern was the completion rate of NPS Fee
                   Demo projects. We believe that translating fee revenues into visible
                   improvements is the major factor in ensuring the success and public
                   acceptance of the Program and have identified several areas in which
                   NPS could improve its ability to complete Fee Demo projects. We
                   also believe that both NPS and BLM could improve program
                   accountability by establishing clearly defined goals and objectives for
                   their Programs, developing accountability standards for managers,
                   ensuring ready access to current and accurate data on Fee Demo
                   projects, and complying with established security guidelines over the
                   collection of Fee Demo revenues. Additionally, NPS could improve
                   its oversight of Program expenditures by ensuring that the
                   expenditures were appropriate and complied with NPS guidelines.
                   Our recommendations in these areas, if implemented, should increase
                   the benefits of the overall Program to the public.

T Improve Rate     In the words of NPS, the Fee Demo Program must be results oriented
                   to gain public acceptance; that is, success should be measured in terms
  of NPS Project
                   of outcomes or “ways in which the programs have actually resulted in
  Completion       on-the-ground improvements . . . or how much better the public is
                   served at recreation sites.”7 We agree with NPS’s assessment, but
                   found that NPS has not completed Fee Demo projects in a timely
                   manner. To help us evaluate the level of NPS’s success in managing
                   the Fee Demo Program, we looked at the overall obligation8 rate for
                   Fee Demo revenues collected and at the number of Fee Demo projects
                   completed at the 17 parks visited.

                   According to the annual Fee Demo Program progress reports to
                   Congress, NPS has approved more than 3,100 Fee Demo projects
                   totaling about $382 million. As of September 30, 2000, however,
                   unused NPS Fee Demo revenues totaled about $228 million, or nearly
                   half of the approximately $459 million of total revenues collected
                   since inception of the Program in fiscal year 1996. The relationship
                   among NPS revenues, approved projects, obligations, and
                   expenditures is shown in Figure 5. Of primary significance is the
                   disparity between the Fee Demo revenues collected and the revenues
                   that have been obligated. Figure 5 shows that NPS was not obligating
                   funds as fast as Fee Demo revenues were collected. Figure 5 also

                   7
                    Cited from the 1999 Recreational Fee Demonstration Program Progress Report to Congress
                   from the four agencies participating in the Fee Demo Program.
                   8
                    An obligation is the amount of an order placed, contract awarded, service received, or
                   similar transaction during a given period that will require payment during the same or future
                   period.

                                                                5
shows, however, that once NPS signed a contract or otherwise
obligated funds, it appeared to have expended Fee Demo revenues in a
timely manner. In effect, while NPS demonstrated increased success
in approving Fee Demo projects, the total value of approved projects
was still less than available revenues.




                                         NPS Cumulative Revenues, Approved
                                        Projects, Obligations, and Expenditures
                                                                               Figure 5


Although there were numerous projects at varying stages of
completion at the 17 parks9 visited, the parks had completed only
about 11 percent (56 of 522) of their approved Fee Demo projects as
of September 30, 2000 (see Figure 6). The cost of the 56 completed
projects was only about 7 percent ($13 million of $191 million) of
total estimated costs for the parks’ approved projects. Although this
represented only a snapshot of Fee Demo accomplishments, we
anticipated that the completion of Fee Demo projects would have
more closely kept pace with the amount of Fee Demo revenues
collected. We identified the following eight factors that adversely
affected the timely completion of Fee Demo projects.




9
 At the time of our review, NPS Headquarters and regional officials could not readily provide
the total number and cost of all completed Fee Demo projects. We therefore developed these
estimates for the 17 parks in cooperation with regional and park officials.

                                             6
See “Sites Visited” in Appendix 2                                  Completed Versus Approved
for the complete names of the parks.                                  NPS Fee Demo Projects
                                                                                       Figure 6



                             1. Delays in the Project Approval Process. NPS regional and
                                park officials told us that the process for approving Fee Demo
                                projects estimated at over $100,000 was cumbersome and time-
                                consuming. Fee Demo projects estimated to cost over
                                $500,000, for example, require a total of 11 levels of review
                                (see page 2 of Appendix 4). In Congressional testimony in
                                March 1999, General Accounting Office (GAO) officials cited
                                the project review and approval process as one factor
                                contributing to the low spending rate during the first 2 years of
                                the Fee Demo Program (see “Prior Audit Coverage,”
                                Appendix 2). As an example of the delays, Intermountain
                                Region officials submitted 131 projects, estimated at over
                                $100,000 each, to NPS Headquarters in February 2000. In July
                                and August 2000, Headquarters officials approved 101 of these
                                projects. As of February 2002, however, 22 of the 131 projects
                                were still awaiting approval. An NPS Headquarters official told
                                us that delays in approving these projects were primarily the
                                result of staffing shortages at the Headquarters office during the
                                summer of 2000 and incomplete and poorly written project
                                submittals that lacked adequate cost estimates. To increase the
                                number of completed Fee Demo projects, Headquarters and
                                Intermountain regional officials told us that they had
                                encouraged park officials to submit small and medium-sized
                                projects, which could be approved more quickly, in addition to
                                large and complex projects.


                                                             7
2. Lack of Professional and Technical Staff. The lack of readily
   available professional and technical expertise for Fee Demo
   projects has affected the ability of some parks to prepare
   adequate project packages and complete approved projects.
   During their March 1999 testimony, GAO officials stated that
   NPS’s limited ability to handle the large number of planned
   projects was another factor contributing to the low spending
   rate of the Fee Demo Program. Park managers told us that the
   NPS prohibition on using Fee Demo revenues to fund
   permanent positions required current employees to provide
   design, architectural, engineering, or contracting expertise for
   Fee Demo projects in addition to their regular duties. Fee
   Demo projects were delayed because this essential expertise
   was often not available in a timely manner. At Mt. Rainier
   National Park, for example, limited access to NPS design
   personnel delayed a sewage treatment renovation project for at
   least 2 years, resulting in continued use of the inadequate
   facility and potentially risking public health and environmental
   contamination. Likewise, the shortage of engineering staff
   delayed for at least 2 years, the completion of six large projects
   at Everglades National Park, including replacement of a
   severely damaged boardwalk (see Figure 7). In February 2002,
   NPS Headquarters officials said they were encouraging park
   officials to hire term employees and to contract with other
   agencies for design work.




                     Damaged Boardwalk at Mahogany Hammock,
                     Everglades National Park, Florida, OIG Photo
                                                          Figure 7

3. Lack of Project Completion Goals. Park managers may not
   be placing a high priority on completing Fee Demo projects.
   As part of GPRA, Federal agencies are required to submit 5-
   year strategic plans with outcome-related goals to Congress and
   the Office of Management and Budget at least every 3 years.
   Fee Demo officials at one region stated that park managers

                                8
  tended to focus on meeting goals stated in the Strategic Plan,
  since performance evaluations were directly tied to
  accomplishing those goals. The Strategic Plan for fiscal years
  2001 through 2005, however, did not specifically refer to
  completing Fee Demo projects. The Plan included a project
  accomplishment goal for only the NPS “line item construction
  program,” which was unrelated to the Fee Demo Program. This
  goal stated, “100% of [program] projects funded by September
  30, 1998, and each successive fiscal year, [must] meet 90% of
  cost, schedule, and construction parameters.” In comparing
  these three parameters with the 32 completed Fee Demo
  construction-related projects at the 17 parks visited, we found
  that only 16 projects, or 50 percent, had been completed within
  the parameters. This 50 percent rate compared unfavorably
  with the 90 percent goal stated in the Plan. We believe that
  completing Fee Demo projects should be an NPS goal. NPS
  Headquarters officials agreed and stated that such a goal should
  include not only the Fee Demo Program, but also similar NPS
  programs.

4. Litigation. Litigation involving Yosemite National Park
   significantly delayed projects estimated at $6.9 million. Ten of
   the Park’s 34 approved Fee Demo projects were delayed at least
   2 years as a result of Federal Court challenges in 1998 and
   1999. Work on six of these projects could not be pursued until
   resolution of the legal challenges, and work on the four other
   projects was stalled when 70 key Park staff were assigned to
   work on the Yosemite Valley Plan, which was needed to
   respond to one challenge. In addition, another Fee Demo
   project to construct a new wastewater treatment plant and
   related facilities was delayed to head off potential future
   litigation. This $8.7 million project would address “grave risks
   to the environment and threats to public health.” According to
   the project justification, the delay could require the closure of
   an area used by 5,000 visitors a day. We believe the Park
   should move forward on 1 or more of 13 other approved Fee
   Demo projects not affected by the litigation.

5. Project Cost Increases. Projects were delayed when costs
   needed to complete Fee Demo projects exceeded the amounts
   approved. Sometimes park managers used other Fee Demo
   revenues to pay the additional costs necessary to complete the
   project as approved. For example, at Bryce Canyon National
   Park, costs of a Fee Demo project, budgeted at $800,000 to
   subsidize operation of a new shuttle system, ballooned when
   expected shuttle revenues fell far short of expectations. A Park
   official estimated that covering the shortfall would require Fee
   Demo revenues of $1.9 million in fiscal year 2001 and

                               9
       $1.2 million in fiscal year 2002, thereby delaying seven Fee
       Demo projects for at least 2 years. These projects included
       rebuilding one of the Park’s two campgrounds and improving
       vista points for visitors. Alternatively, when other funds could
       not be obtained, Park managers had to limit the amount of work
       performed to what could be paid for within approved funding.
       At Mt. Rainier National Park, for example, two campground
       improvement projects renovated only 144 of the 599 campsites
       promised (see Figure 8). In our opinion, NPS should make the
       amendment process more flexible to adapt to changing
       circumstances, such as project cost increases, to ensure that
       projects can be completed as originally approved.




                         Renovated Campground, Mt. Rainier National Park,
                                                 Washington, OIG Photo
                                                                                Figure 8
    6. Work Scheduling. The nature of Fee Demo revenue funding
       also affected the completion rate of Fee Demo projects. Fee
       Demo revenues are classified as multi-year10 appropriated
       funds, which, unlike annually appropriated funds, remain
       available for use in subsequent fiscal years. According to
       regional officials, park managers may assign staff to complete
       projects funded with annual appropriations first and defer
       projects funded with multi-year funds to a later time to
       maximize funding resources. Fee Demo projects, which are
       paid for with multi-year funds, are therefore often delayed.




10
   An agency can carry over multi-year appropriated funds from year to year and is not
obligated to return any unused funds to the U.S. Treasury at the end of the fiscal year.
Annually appropriated funds, on the other hand, must be used within the fiscal year for which
they are appropriated and unused funds returned to the U.S. Treasury.

                                            10
  7. Delays in Allocating Fee Demo Revenues to Parks. NPS
     accounting and budgeting officials did not promptly release Fee
     Demo revenues back to the parks from fiscal year 1998 through
     fiscal year 2001. Revenues collected from October through
     January were not released until March or April, thereby
     delaying Fee Demo projects in parks that did not have sufficient
     revenue reserves. For example, the seven Intermountain
     Region parks visited did not receive their revenue allocations
     totaling about $6.6 million from fees collected from October
     1999 through January 2000 until March 1, 2000. The four
     parks visited in the Southeast Region did not receive their $1.2
     million allocation from fees collected from October 2000
     through February 2001 until April 11, 2001. An NPS budget
     official stated that the allocations were delayed each year to
     allow for finalizing the prior year accounting records. Officials
     at both Bryce Canyon National Park and the Chattahoochee
     River National Recreation Area told us that the several month
     wait each year slowed the completion of Fee Demo projects.

  8. Banking Fee Demo Revenues. Parks must “bank” or
     accumulate sufficient Fee Demo revenues before beginning
     work on more costly Fee Demo projects, such as constructing
     visitor centers. For example, Mammoth Cave National Park has
     a $6 million project to rehabilitate its visitor center. Since the
     Park collects Fee Demo revenues of about $2.3 million a year,
     these funds need to be banked for several years, thereby
     delaying the start of this and other Fee Demo projects.

Because of delays in completing Fee Demo projects, NPS has not
enhanced the quality of visitor experiences to the extent envisioned
under the Fee Demo Program legislation. We recognize that NPS
cannot completely control some of the factors, such as the approval
process, the shortage of professional and technical expertise, and
ongoing litigation, that delayed the completion of Fee Demo projects.
We believe, however, that NPS could alleviate the effect of these
factors. For example, NPS could approve projects far in advance of
fund availability, which would alleviate the adverse effect of the
review process on project completion. NPS could address the
shortage of professional and technical expertise by increasing its
efforts to contract out work for Fee Demo projects, modifying its own
restrictions on the kind of staff salaries that can be charged to Fee
Demo projects, or requesting additional regional and Headquarters




                                 11
                      resources to provide Program support.11 NPS could also be more
                      flexible in addressing the effects of project cost increases and
                      litigation on project completion.

T Improve             We believe that both NPS and BLM could enhance the benefits of
                      their Fee Demo Programs by improving Program accountability.
  Program             Both agency Fee Demo Programs lacked clearly defined and
  Accountability      measurable goals and objectives, accountability standards for
                      managers, ready access to clear and accurate project data, and
                      adequate compliance with security guidelines over the collection of
                      revenues.

     Goals and        NPS had not established goals and objectives for completing Fee
     Objectives       Demo projects to ensure the overall success of its Fee Demo
                      Program. For example, NPS could not provide comprehensive
                      indicators of the Program’s success other than the number of projects
                      approved, estimated project costs, and the amount of funds obligated.
                      The only goals in NPS’s 1997 and 2000 Strategic Plans referred to
                      increasing Fee Demo revenues. There were no goals for the use of
                      Fee Demo revenues or for the number of Fee Demo projects expected
                      to be completed, which, in our opinion, are equivalent to or more
                      important than the goals for increasing revenues. We also found that
                      BLM had not developed goals and objectives to ensure that business12
                      and operating plans for individual recreation sites included both an
                      estimate of the Fee Demo revenues to be received and a plan for their
                      effective use. Such business and operating plans would identify a
                      means to enhance the quality of visitor experiences and to better
                      protect resources. For example, BLM’s draft evaluation report on the
                      Red Rock Canyon site, issued in fiscal year 2000, identified a need to
                      address current operating and financial needs of the Fee Demo
                      Program, reduce costs of collection, and develop projects that
                      provided long-term benefits to the site.

     Accountability   Both NPS and BLM should ensure that the performance appraisals
     Standards        for managers with Fee Demo responsibility include accountability as
                      an element to measure success in managing their programs and in
                      meeting GPRA requirements. Such success should relate both to
                      completion of projects and to compliance with agency guidelines.

                      11
                        The House of Representatives did propose $10 million in additional construction funds in
                      the fiscal year 2002 appropriation to assist regional offices with the increased workload
                      associated with the backlog of repair and rehabilitation, Fee Demo, and construction projects.
                      According to NPS budget officials, however, the funds were deleted in the House-Senate
                      conference committee.
                      12
                        BLM’s Instruction Memorandum No. 97-36 defines a business plan as a plan that
                      “describes the objectives of the business and how the unit intends to achieve them. Such
                      plans require an understanding of the resources (both physical and financial) available and
                      customers who will be using, consuming, and paying for the product/services produced.
                      Increased quality public service and resource protection are and must remain the primary
                      objectives.”

                                                                   12
              We believe the best way to ensure accountability is to make it a part
              of managers’ performance standards. Two GAO reports, published in
              1996 and 1997, supported our conclusions (see “Prior Audit
              Coverage,” Appendix 2). The 1997 report specifically noted the
              failure of NPS to hold park managers accountable for the results of
              park operations. In regard to the Fee Demo Program, this situation
              has continued. Likewise, a December 2000 Office of Inspector
              General (OIG) Advisory Letter reporting on accountability within
              BLM management stated that field office managers should be held
              accountable for enforcing cash management policies and procedures
              (see “Prior Audit Coverage,” Appendix 2).

Current and   Without current and accurate data on Fee Demo projects, neither NPS
Accurate      nor BLM could effectively monitor the progress and completion of
Program       Fee Demo projects. Without such data, the agencies cannot establish
Data          reasonable goals and objectives, evaluate managers’ actions, identify
              projects with extended delays and difficulties, or accurately report
              Program accomplishments to Congress.

              NPS Data. The NPS Project Management Information System
              (PMIS) is the primary means for accumulating project information
              and for reporting on the Fee Demo Program. Project data in the
              PMIS often did not clearly define the project scope or include
              estimated project completion dates. In addition, data were often a
              year or more out of date and contained errors in project target dates,
              monetary amounts, and project description and status. In July 2000,
              the NPS Director asked the Associate and Regional Directors to
              provide for more careful reviews, better documentation, and regular
              updates to Fee Demo project data in the PMIS. During fiscal year
              2001, NPS officials worked to make the PMIS a more effective
              management tool and to clean up project data. For example, they
              increased the amount and detail of written guidance and planned
              training programs for employees using the PMIS. Until all
              improvements are completed and existing data corrected, however,
              Fee Demo project data on the 3,100 approved projects are not entirely
              reliable. We noted that NPS Intermountain Region officials
              maintained a separate, formal Fee Demo project tracking system to
              achieve a higher degree of management oversight over parks in their
              area of responsibility. Likewise, most of the parks visited maintained
              informal “cuff” summary records for their Fee Demo projects.

              BLM Data. BLM Program managers did not always prepare
              accurate accounting system data or reconciliation schedules that
              agreed with Program revenues, costs of collections, and operating
              expenditures submitted to BLM’s state offices and reported in the
              annual Fee Demo Program progress reports to Congress. For
              example, at Red Rock Canyon, fiscal year 1999 Fee Demo revenues
              reported in the accounting system ($1,120,000) differed from those

                                               13
              reported to Congress ($956,000). Likewise, for fiscal year 2000, Red
              Rock Canyon’s collection costs reported in the accounting system
              ($74,000) differed from those reported to Congress ($230,000).

              We also noted a lack of oversight over recording expenditure
              transactions, which resulted in expenditures being recorded to the
              wrong cost code. For example, at the Red Rock Canyon site, we
              found nine transactions totaling about $227,000 that were recorded to
              the wrong program cost codes. The incorrect recording understated
              costs of collections and overstated interpretative and maintenance
              expenses for fiscal years 1998, 1999, and 2000. Without proper
              recording of expenditure transactions, there is no assurance that
              accounting expenditure information provided to Program managers
              and Congress will be accurately reported.

Security of   We focused our review on cash collections, which traditionally are
Fee Demo      more vulnerable to theft. We found that NPS did not consistently
Revenues      follow its own guidelines, which provide a means to safeguard Fee
              Demo revenues by requiring park officials to conduct cash register
              and fee compliance audits and internal reviews of collection
              activities.13 We also found that BLM lacked the management
              controls to adequately protect its cash collections. For example,
              BLM did not always follow its own Collection Reference Guide,
              which requires that BLM officials ensure that revenues are
              appropriately collected, secured, and recorded and that these activities
              are properly segregated. We noted the following security issues:

                   ‚ Nonperformance of Audits. At the NPS sites visited, staff had
                     conducted only about 53 percent of required cash register audits
                     and about 38 percent of the required fee compliance audits. In
                     addition, at 7 of the 17 parks visited,14 we found that officials
                     had not performed any internal reviews. NPS officials told us
                     they did not have the staff to conduct the required audits and
                     internal reviews. We believe that audits and reviews are
                     necessary controls to help secure Fee Demo revenues and noted
                     that the diligent performance of fee compliance audits at
                     Mt. Rainier National Park resulted in the detection and
                     subsequent termination of an employee who was stealing
                     entrance fees.

              13
                 Cash register audits are performed at the entrance stations or campgrounds where fees are
              collected and include a cash drawer count and reconciliation with sales records and inventory
              of park passes on hand. In fee compliance or “road audits” as they are often called, security
              personnel set up a checkpoint just down the road from the entrance station to a park. Visitors
              are requested to show receipts to verify that the proper fees have been paid. Internal reviews
              are conducted by administrative staff to ensure that prescribed control procedures are being
              followed.
              14
               Bryce Canyon, Grand Teton, Mammoth Cave, and Yellowstone National Parks; Dinosaur
              National Monument, Golden Gate National Recreation Area; and Prince William Forest Park.

                                                           14
     ‚ Lack of Background Checks. NPS also requires pre-
       employment background checks for seasonal and permanent fee
       collection employees.15 Of the fee collector personnel files
       sampled, however, only about 42 percent had documented
       background checks. NPS officials stated that the low number of
       employee background checks was due in part to the lack of
       awareness that such checks were required and the belief that
       they were too expensive, time consuming, and unnecessary for
       seasonal personnel. We believe that background checks are a
       key element of a park’s internal control system and help deter
       the employment of unscrupulous fee collectors.

     ‚ Poor Physical Condition of Entrance Stations. In addition to
       the lack of background checks, we noted that the poor physical
       condition and isolated locations of some entrance stations at
       four NPS sites (Yosemite, Grand Teton, and Rocky Mountain
       National Parks and Prince William Forest Park) posed security
       risks. Officials at Grand Teton and Rocky Mountain National
       Parks and Prince William Forest Park told us that they have
       begun using Fee Demo revenues to reduce security risks by
       rehabilitating or replacing the old stations. They are also
       installing surveillance cameras and improving communications,
       which although not required by NPS guidelines, will provide
       safer environments for fee collectors and help ensure the
       security of collections. Yosemite officials told us that they have
       put the design and location of new stations on hold until final
       approval of the Park’s general management plan, but had
       improved security around the stations by increasing the
       frequency of law enforcement patrols, installing surveillance
       cameras, and upgrading the telephone lines.

     ‚ Failure to Adequately Secure Revenues. At BLM sites
       visited, we found that Fee Demo revenues were not always
       appropriately collected, secured, and deposited. For example,
       at four of the five recreation sites visited,16 cash receipts were
       collected by only one individual, and revenues were counted by
       employees in areas accessible to the public and other
       employees. At the Lower Deschutes River site, fee revenues
       were transported to the district office in unsecured containers.
       We also found at all five sites visited that collection officers
       were performing multiple functions, including receiving,
       recording, and depositing collections. Sound internal controls

15
 Under NPS guidelines, a background check is required for fee collection employees who
will be employed for 180 days or longer and is desirable for employees who will be
employed for fewer than 180 days.
16
  Hyatt Lake Complex, Lower Deschutes River, John Day River, and Red Rock Canyon.

                                           15
                            require that these duties be performed by more than one
                            employee.

T Ensure            NPS could improve the oversight of its Fee Demo Program by
                    ensuring that project expenditures, including charges to cost-of-
  Appropriate Use   collection accounts, were appropriate. At the sites visited, about
  of Fee Demo       95 percent of expenditures tested were reasonable and appropriate;
  Revenues          however, we identified about $5.2 million of project and cost-of-
                    collection expenditures for fiscal years 1998 through 2000 that, in our
                    opinion, did not comply with NPS guidelines.17 (See Appendix 5 for
                    individual park totals.) The guidelines state that Fee Demo revenues
                    may not be used to offset the salaries of any existing park staff, to
                    hire permanent staff (except for positions involved in the direct
                    collection of fees), or to fund any employee housing projects. We
                    believe the following examples represent NPS’s use of Fee Demo
                    revenues for purposes that were not consistent with NPS guidelines.

                         ‚ Yellowstone National Park staffing reports indicated that
                           permanent employee salaries totaling about $681,000 were
                           charged to Fee Demo projects during fiscal years 1999 and
                           2000. For example, the Park used Fee Demo revenues
                           totaling about $213,000 during fiscal year 2000 to pay for
                           salaries of “permanent subject to furlough” employees and for
                           materials and other costs on two Fee Demo projects to restore
                           and rehabilitate historic structures being used for employee
                           housing (Figure 9). Park officials asserted that such charges
                           were not in violation of the guidelines.18 To avoid such future
                           misunderstandings, Headquarters officials should clarify their
                           intent in these areas. In addition, the Park’s cost-of-collection
                           accounts included an estimated $545,000 of salaries for park
                           ranger and administrative personnel who had only minimal or
                           no duties related to fee collection.




                    17
                     We sampled Fee Demo project obligations totaling $44.8 million, of which about
                    $42.5 million, or 95 percent, were considered proper charges to project and cost-of-collection
                    accounts. The majority of the $2.3 million in inappropriate charges ($44.8 million less
                    $42.5 million) was for permanent salaries. To determine the extent of the salary charges, we
                    expanded our review in 9 of the 17 parks visited and identified an estimated additional
                    $2.9 million of inappropriate charges.
                    18
                      The Park’s Maintenance Chief stated that NPS policy does not preclude the use of Fee
                    Demo revenues to pay the salaries of employees who were classified as “permanent subject
                    to furlough,” although officials at Headquarters, the Intermountain Region, and other parks
                    advised us that such employees were, in effect, considered to be permanent employees and
                    that their salaries should not be charged to Fee Demo. Other Park officials believed that they
                    could use Fee Demo revenues to repair and rehabilitate historic structures used for employee
                    housing. NPS regional officials, however, stated that this use was a “gray” area.

                                                                 16
                             Renovated Historic Structure Used as Employee
                                       Housing, Yellowstone National Park,
                                                      Wyoming, OIG Photo
                                                                              Figure 9

     ‚ Grand Canyon National Park used Fee Demo revenues of
       about $783,000 in fiscal years 1998 through 2000 to pay for
       salaries of permanent employees and equipment and furniture.
       These expenses, which were inappropriately charged to eight
       Fee Demo projects, should have been paid from the Park’s
       base appropriation accounts. In addition, the Park’s cost-of-
       collection accounts for fiscal years 1998 through 2000
       included at least $384,000 for salaries of Park administrative
       personnel with no fee collection duties (budget analysts,
       personnel management specialists, and a diversity
       coordinator) and for equipment (office furniture, printers, and
       a computer) used by the administrative staff.

     ‚ Mammoth Cave National Park’s cost-of-collection accounts
       for fiscal years 1998 through 2000 included about $615,000 of
       salaries for Park rangers, tour guides, and maintenance
       employees who were not involved in the collection of Park
       entrance or cave tour fees.19

     ‚ Also at Grand Canyon National Park and at Mt. Rainier
       National Park, about $64,000 in salaries and related costs of
       employees who worked at three locations 60 to 90 miles
       outside park boundaries was charged to fiscal year 2000 cost-
       of-collection accounts, even though these employees did not
       collect any fees.


19
  The Southeast Region’s Fee Program Manager told us that the practice of Park rangers and
tour guides charging their salaries to the cost-of-collection accounts was stopped in fiscal
year 2001.

                                             17
                  NPS established policies to ensure that Fee Demo revenues
                  supplemented rather than supplanted funds for park operations. As
                  noted in the previous examples, we identified instances of parks not
                  complying with these policies when using Fee Demo revenues for
                  project expenditures, including charges made to cost-of-collection
                  accounts. Park officials told us that generally salaries were charged
                  to cost-of-collection accounts either because the employees indirectly
                  benefitted the Fee Demo Program or because park operation funds
                  were limited.

                  We believe that while many of these expenditures may have
                  indirectly benefitted the Program, they were for operations and
                  should not have been charged to cost-of-collection accounts under
                  existing NPS policy. We found that the parks’ inappropriate use of at
                  least $2.8 million charged to cost-of-collection accounts in effect
                  reduced the revenues available to fund needed Fee Demo projects.
                  We therefore determined that these revenues could have been put to
                  better use (see Appendix 1). In November 2001, the NPS
                  Headquarters Fee Program Manager issued more explicit guidance on
                  the types of expenditures that can be charged to costs of collection to
                  address these inappropriate charges. In addition, the Fee Program
                  Manager and her staff began scrutinizing the fiscal year 2002 cost-of-
                  collection budget submittals.

Recommendations   To help ensure the timely accomplishment of Fee Demo projects,
                  improved Program accountability, and the appropriate use of Fee
                  Demo revenues, we recommend that the Directors of NPS and BLM:

                     1. Develop strategies and take action to reduce the effect of
                        obstacles to the timely completion of Fee Demo projects.
                        These efforts should address the approval process, lack of
                        professional and technical staff, and other factors that affect
                        the timely completion of projects, such as litigation, cost
                        increases, work scheduling, revenue allocation and banking.
                        (NPS only)

                     2. Amend the NPS Strategic Plan to include a Fee Demo
                        Program accomplishment goal either as a separate goal or as
                        part of a joint goal for similar NPS programs. (NPS only)

                     3. Establish clearly defined and measurable Fee Demo Program
                        goals and objectives, develop related performance
                        accountability standards for managers, ensure current and
                        accurate Program data, and effectively monitor Program
                        accomplishments. (NPS and BLM)

                     4. Require adherence to agency regulations to (a) perform
                        entrance and campground audits, internal reviews, and

                                                    18
                       employee background checks (NPS only) and (b) evaluate
                       effectiveness of internal controls over cash management
                       activities. (BLM only)

                   5. Issue clarification for future NPS Program Project Call
                      guidelines regarding the use of Fee Demo revenues for
                      “permanent subject-to-furlough” employee salaries and for
                      work on historical structures used for employee housing.
                      (NPS only)

                   6. Require periodic regional monitoring of Fee Demo project
                      expenditures, including charges to cost-of-collection accounts,
                      to ensure that the expenditures are in accordance with NPS
                      guidelines. (NPS only)

                In the May 30 and June 6, 2002 responses to the draft report, the
NPS and BLM     Directors of the BLM and NPS generally agreed with and supported
Responses and   the findings of the report and concurred with the report’s
OIG Reply       recommendations. (See Appendix 6 for the NPS response and
                Appendix 7 for the BLM response.) Based on BLM’s response, we
                consider the recommendations to BLM (Nos. 3 and 4) resolved and
                implemented (see Appendix 8). Based on the NPS response, we are
                requesting additional information for Recommendations 1 through 6,
                as detailed in Appendix 8. Although NPS concurred with
                Recommendations 1 through 6, it did not provide the information
                necessary to resolve them, as follows:

                   ‚ Recommendation 1. The NPS response stated that NPS has
                     addressed several of the conditions identified as slowing the
                     completion of Fee Demo projects. For example, NPS has
                     streamlined the project approval process at the Washington
                     Office level, added a new PMIS component for improved
                     project cost estimating, improved work scheduling by having
                     parks request projects in advance of funding cycles to
                     expedite project approvals, and upgraded the PMIS to identify
                     project status and accomplishments for multi-year projects.
                     The response, however, did not discuss how NPS planned to
                     address the adverse effects on project completion of
                     insufficient professional and technical staff and litigation. As
                     discussed in the report, we believe the shortage of staff
                     qualified to provide critical professional and technical
                     services has seriously delayed projects. We are requesting
                     that NPS provide an action plan for reducing the effects of
                     these two obstacles to the timely completion of projects.

                   ‚ Recommendation 2. The NPS response did not address the
                     intent of the recommendation. Although tying a strategic plan
                     goal to park manager accountability may be desirable, this

                                                 19
   was not the focus of this recommendation. We are requesting
   that NPS amend the Strategic Plan to include a Fee Demo
   Program goal related to project completion. Such an
   amendment appears to be within the intent of GPRA and
   would significantly increase the focus of both park managers
   and NPS Headquarters officials on Program performance.

‚ Recommendation 3. The NPS response referred to a broad
  set of goals and objectives identified in a May 2002 Interim
  Report to Congress. We reviewed this report and did not
  identify any objectives related to establishing defined and
  measurable Fee Demo Program goals and objectives. In
  addition, NPS did not comment on developing related
  accountability standards but, instead, stated that such
  standards would be investigated in conjunction with
  developing a strategic goal tied to park manager
  accountability. We are requesting that NPS establish clearly
  defined and measurable Program goals and objectives,
  develop related performance accountability standards for
  managers, ensure current and accurate Program data, and
  effectively monitor Program accomplishments.

‚ Recommendation 4. The NPS response stated that, until new
  NPS-wide standards and protocols were enacted as part of an
  audit program, current cash handling audits at both the park
  and regional level would continue with available funding and
  staff. The response also stated that NPS would request
  funding this year for additional personnel to process
  background checks for fee collection staff and that NPS would
  also reemphasize the requirement for background checks in
  fee conferences and in the issuance of the revised Director’s
  Order 22 B Recreation Fee Guidelines. The NPS response
  generally addressed the recommendation, but did not indicate
  when the audit program would be in place and how it would
  be used to require adherence to NPS regulations. We are
  requesting that NPS provide copies of the audit program, the
  revised Director’s Order 22, and the action plan for
  implementation to ensure the performance of entrance and
  campground audits, internal reviews, and employee
  background checks.

‚ Recommendation 5. The NPS response stated that NPS
  would issue a clarification memorandum to the field offices to
  discuss the parameters of using Fee Demo revenues for
  permanent employee salaries and for historic housing projects.
  The response also stated that many of the expenditures
  identified in the report as not being consistent with NPS
  policy had resulted from errors in cost accounting or simple

                             20
   misunderstandings about NPS policy requirements in the
   Program’s early years. However, we found that some of the
   larger parks used Fee Demo revenues as a means to fund work
   performed by permanent employees (including subject-to-
   furlough positions), which was not consistent with NPS
   policy. Although the expenditures were allowable under the
   legislation, NPS established its policies to ensure that Fee
   Demo revenues supplemented rather than replaced park
   operational funds. We are requesting copies of the
   clarification memorandum on the use of Fee Demo revenues
   for project work performed by permanent employees and for
   work on historical structures used for employee housing and
   the related action plan for implementation.

‚ Recommendation 6. The response stated that NPS was
  developing NPS-wide standards and implementing protocols
  for the audit program (see Recommendation 4), including
  reviews to monitor Fee Demo Program accountability and
  accomplishments. According to an NPS official, this audit
  program would include steps to ensure that expenditures
  charged to Fee Demo projects complied with agency policy
  and regulations. In addition, the response stated that the
  continued review and approval of all fee project proposals
  (including cost-of-collection projects) in PMIS would be done
  by park, regional, and headquarters officials to ensure that the
  projects met specific criteria and agency policy. We agree
  that an audit program would help ensure that Fee Demo
  project expenditures were in accordance with NPS guidelines,
  but believe that if the audit program is to be effective, it
  should require periodic regional monitoring of expenditures.
  We are requesting that NPS include in its audit program
  periodic monitoring of Fee Demo project expenditures by
  regional officials and provide an action plan for
  implementation.




                              21
Appendix 1
Classification of Monetary Amounts

                                                                         Funds To Be Put To
                                    Source                                    Better Use
                 NPS Cost-of-Collection Expenditures                            $2,852,7321




             1
              Only $2.8 million of the $5.2 million in costs not in compliance with NPS guidelines (see
             Appendix 5) was classified as “Funds To Be Put To Better Use” because the remaining
             $2.4 million was primarily for salaries of permanent employees actually working on Fee
             Demo projects. The $2.8 million, however, was Fee Demo revenues that could have been
             used to fund necessary projects rather than the salaries of employees usually paid from base
             appropriation accounts.




                                                          22
                                                                        Appendix 2
                                                                           Page 1 of 5
                           Audit Scope and Methodology

Government       We conducted our review, as applicable, in accordance with the
Auditing         Government Auditing Standards, issued by the Comptroller General
                 of the United States. Accordingly, we included such tests of records
Standards        and other auditing procedures considered necessary under the
                 circumstances. As part of our review, we reviewed the Department of
                 the Interior’s Reports on Accountability for fiscal years 1998 through
                 2000, which include information required by the Federal Managers’
                 Financial Integrity Act, and NPS and BLM annual assurance
                 statements on management controls for fiscal years 1998 through
                 2000. Based on that review, we determined that none of the
                 weaknesses reported for the Department, NPS, and BLM were within
                 the objectives and scope of our review. We also reviewed the internal
                 controls over the Fee Demo Program and found weaknesses in the
                 expenditure and safeguarding of revenues, which are discussed in the
                 body of the report. Our recommendations, if implemented, should
                 improve internal controls in these areas.

Scope and   To accomplish our objectives, we reviewed prior fee legislation; the
Methodology Fee Demo Program’s authorizing legislation and related legislative
            history; annual Fee Demo Program progress reports to Congress; NPS
                 Program Project Call criteria and NPS-22 guidelines; NPS and BLM
                 annual budget justifications; applicable NPS and BLM Program
                 financial reports and accounting records; PMIS detail data sheets;
                 park organization charts and employee position descriptions; audits
                 and internal reviews performed by park officials and others; and
                 applicable BLM policies and procedures. We also interviewed
                 responsible officials in the Fee Demo Program at NPS Headquarters,
                 Accounting Operations Center, and related regions and parks and at
                 BLM Headquarters, state, district, and field offices. We conducted
                 our review between August 2000 and December 2001.

                 The scope of our audit primarily included Fee Demo Program activity
                 during fiscal years 1998 through 2000. For our BLM review, we did
                 not examine whether BLM supplemented existing funding with Fee
                 Demo revenues because, unlike NPS, BLM had not developed
                 internal guidelines restricting such use. For our NPS review, we
                 concentrated on the revenues that were used at the parks where they
                 were collected (“80 percent money”). Under Program legislation, the
                 agencies must use at least 80 percent of the revenues at the park or
                 recreational area where the revenues are collected. The remaining
                 revenues, up to 20 percent, can be used at other locations under the



                                                  23
          Appendix 2
          Page 2 of 5

          administrative jurisdiction of the collecting agencies. We did only
          minimal work regarding the use of “20 percent money” because many
          of the projects funded with these revenues, such as the Youth
          Conservation Corps and Green Energy Programs, were NPS-wide
          activities approved for both Fee Demo and non-Fee Demo parks.

          We did not determine whether NPS and BLM minimized their fee
          collection staff, thereby reducing the costs of collection. At the sites
          visited, we did not evaluate whether the fee collection staffing was
          appropriate for the sites’ traffic patterns, visitation, number of
          entrance stations and campground collection points, and hours of
          operations. Nothing came to our attention, however, that indicated
          that staff levels at the sites were excessive.

          We also did not determine whether NPS was using Fee Demo
          revenues to address its highest priority needs because NPS’s multiple
          funding sources enabled Fee Demo revenues to be available for some
          lower priority projects.20 In a November 1999 report, GAO officials
          stated that they could not assess whether NPS was addressing its
          highest priority needs because the parks did not have an overall
          priority list (see page 26).

Sites     For our NPS review, we visited NPS’s Headquarters Office and
Visited   Accounting Operations Center, four regional offices and 17 park units
          judgmentally selected throughout the United States. For our BLM
          review, we visited five judgmentally selected Fee Demo sites under
          the jurisdiction of three BLM offices located at Medford and
          Prineville, Oregon, and Las Vegas, Nevada, as follows:

          Sites Visited                                                Location

          NPS Sites:
          Headquarters Office                                          Washington, D.C.
          Accounting Operations Center                                 Herndon, Virginia

          Intermountain Regional Office                                Lakewood, Colorado
             Bryce Canyon National Park                                   Utah
             Dinosaur National Monument                                   Colorado
             Grand Canyon National Park                                   Arizona



          20
             Most parks visited did not have an overall consolidated, prioritized list of needs. Park
          officials told us that they had not identified their total needs because the needs far exceeded
          available funding. In February 2001, Office of Management and Budget officials requested
          NPS to develop project priority lists for each park regardless of funding source.

                                                        24
                                                                        Appendix 2
                                                                         Page 3 of 5

                Grand Teton National Park                     Wyoming
                Rocky Mountain National Park                  Colorado
                Yellowstone National Park                     Wyoming
                Zion National Park                            Utah

              Pacific West Regional Office and            Oakland, California
              Columbia Cascades Support Office            Seattle, Washington
                 Golden Gate National Recreation Area         California
                    (Alcatraz Island and Muir Woods
                      National Monument)
                 Mt. Rainier National Park                    Washington
                 Sequoia-Kings Canyon National Park           California
                 Yosemite National Park                       California

              National Capital Regional Office            Washington, D.C.
                 George Washington Memorial Parkway          Virginia
                   (Great Falls Park)
                 Prince William Forest Park                   Virginia

              Southeast Regional Office                   Atlanta, Georgia
                 Castillo de San Marcos National
                   Monument                                   Florida
                 Chattahoochee River National
                   Recreation Area                            Georgia
                 Everglades National Park                     Florida
                 Mammoth Cave National Park                   Kentucky

              BLM Sites:
              Medford District Office                     Medford, Oregon
                 Rogue River                                  Oregon
                 Hyatt Lake Complex                           Oregon
              Prineville District Office                  Prineville, Oregon
                 Lower Deschutes River                        Oregon
                 John Day River                               Oregon
              Las Vegas Field Office                      Las Vegas, Nevada
                 Red Rock Canyon                              Nevada

Prior Audit   We reviewed the following prior audit coverage of the Fee Demo
Coverage      Program and related activities.

  November      ‚ Recreation Fees: Management Improvements Can Help the
    2001          Demonstration Program Enhance Visitor Services (GAO-02-
                  10). The report, which followed up on GAO’s November 1998
                  report, stated that (1) fee collection and coordination could be
                  improved, including a more effective evaluation of manager fee
                  collection and coordination practices, and (2) Fee Demo
                  revenues may not


                                                   25
           Appendix 2
           Page 4 of 5

               always be used to meet highest priority needs. GAO
               recommended that NPS, BLM, FWS, and U.S. Forest Service
               develop specific performance expectations and implement a
               process for conducting systematic evaluations to identify which
               fee collection and coordination practices worked best. GAO also
               recommended that the four agencies develop an effective
               mechanism for overseeing and coordinating the Program.

December    ‚ Collection Module of the Collections and Billings System,
  2000        Bureau of Land Management, OIG Report No. 01-I-096,
              concluded that although BLM had improved its processes for
              entering data on revenue collections, automating manual
              operations, and exchanging data with other systems, the data
              maintained in the system were incomplete and therefore
              unreliable. The report also concluded that BLM needed better
              manager accountability to ensure the timely deposit of
              collections and the security of cash, checks, and credit cards.

November    ‚ National Park Service: Recreational Fee Demonstration
  1999        Program Spending Priorities (GAO/RCED-00-37R). The report
              stated that at the four parks reviewed (Grand Canyon, Sequoia-
              Kings Canyon, and Yellowstone National Parks and Jefferson
              National Expansion Memorial), Fee Demo project expenditures
              for fiscal years 1997 through 1999 were consistent with the
              needs of park division managers and with authorizing legislation
              and Departmental and NPS criteria. GAO could not assess,
              however, whether spending addressed the parks’ highest priority
              needs because the parks did not have an overall priority list or a
              priority list for each park and because multiple funding sources
              made Fee Demo funds available for some lower priority projects.

 March      ‚ Recreation Fees: Demonstration Has Increased Revenues but
 1999         Impact on Park Service Backlog Is Uncertain (GAO/T-RCED-
              99-101). In testimony before a Congressional Committee, GAO
              officials stated that although the Fee Demo Program had
              increased revenues to NPS, the effect on the maintenance
              backlog was uncertain because NPS did not have reliable data on
              the size and scope of deferred maintenance needs. The officials
              also stated that the two factors contributing to the low rate of
              spending over the first 2 years of the Fee Demo Program were
              the delays caused by the project review and approval process and
              the limited capacity of NPS to handle the large number of
              projects planned under the Fee Demo Program.



                                           26
                                                               Appendix 2
                                                                  Page 5 of 5

November   ‚ Demonstration Fee Program Successful in Raising Revenues but
  1998       Could Be Improved (GAO/RCED-99-7). The report stated that
             (1) expenditures appeared to be consistent with authorizing
             legislation; (2) recreational fee revenues had increased
             substantially, although most remained unspent; (3) opportunities
             existed for more innovation and coordination in fee collection
             activities; and (4) visitation was largely unaffected by the Fee
             Demo Program. The report recommended that NPS and FWS
             look for further opportunities to experiment with new and
             existing fees and, along with BLM, improve visitor services by
             better coordination of fee collection activities.

 April     ‚ Management for Results Could Strengthen Accountability
 1997        (GAO/RCED-97-125). The report stated that key components to
             hold NPS park managers accountable, such as processes for
             setting results-oriented expectations or monitoring outcomes,
             were missing and that goals to be achieved in the parks or a
             process for measuring progress toward these goals had not been
             established. The report concluded that NPS lacked a means to
             monitor progress toward achieving its goals and to hold park
             managers accountable for the results of park operations.

 June      ‚ Effectively Implementing the Government Performance and
 1996        Results Act (GAO/GGD-96-118). The report stated that the Act
             required Federal agencies to set goals, measure performance, and
             report on their accomplishments. In addition, the report stated
             that the agencies should define clear missions and desired
             outcomes, measure performance to gauge progress, and use
             performance information as a basis for decision making. The
             report also stated that agencies should devolve decision making
             with accountability, create incentives, build expertise, and
             integrate management reforms.




                                          27
Appendix 3
NPS Fee Demo Revenues
Collected By Park
                                                               Fiscal Years
                                                                1998-2000
                    Regions/Parks Visited                        Revenue
 Intermountain Regional Office
     Bryce Canyon National Park                                     $6,783,000
     Dinosaur National Monument                                      1,057,000
     Grand Canyon National Park                                     66,787,000
     Grand Teton National Park                                      12,361,000
     Rocky Mountain National Park                                   13,922,000
     Yellowstone National Park                                      19,104,000
     Zion National Park                                             11,531,000
 Pacific West Regional Office
 Columbia Cascades Support Office
     Golden Gate National Recreation Area
         (Alcatraz Island and Muir Woods National                    9,997,000
            Monument)
     Mount Rainier National Park                                     6,842,000
     Sequoia-Kings Canyon National Park                              7,722,000
     Yosemite National Park                                         42,534,000
 National Capital Regional Office
     George Washington Memorial Parkway
          (Great Falls Park)                                         1,080,000
     Prince William Forest Park                                        277,000
 Southeast Regional Office
     Castillo de San Marcos National Monument                        3,954,000
     Chattahoochee River National Recreation Area                    1,585,000
     Everglades National Park                                        4,416,000
     Mammoth Cave National Park                                      7,010,000
 NPS Sites Visited Subtotal                                      $216,962,000
 NPS Sites Not Visited                                             172,602,000
 Golden Eagle Revenue*                                              23,966,000
 Fiscal Year 1997 Revenue*                                          45,079,000
 NPS Total Revenue (Fiscal Years 1997-2000)                      $458,609,000
 Less: Obligations (Fiscal Years 1997-2000)                      (230,228,000) **
 Unobligated Balance                                             $228,381,000

* Data not specifically identified by park.
** Obligation amount rounded to $231 million in the body of the report.

Source: The 1997, 1998, 1999, and 2000 Fee Demo Reports to Congress from the
four agencies participating in the Fee Demo Program




                               28
                                                                     Appendix 4
                                                                        Page 1 of 2
                  NPS Fee Demo Project Selection
                           and Approval Process
Project     Generally, park managers, in consultation with park division chiefs,
Selection   determine park spending and operating priorities based on available
            funding. The chiefs of park divisions, such as resource management
Process
            and protection, maintenance, interpretation, and administration, each
            develop a list of priorities. The lists are discussed, with project
            selection ultimately the prerogative of the park managers, who
            forward selected projects to the regional offices for approval.

            The primary funding sources are park operating budgets, line item
            construction funds, and Fee Demo revenues (which can represent a
            significant portion of a park’s funding). When selecting a funding
            source, park managers consider many factors, including the type, size,
            and scope of the project and specific funding restrictions. Generally,
            large infrastructure projects over $500,000 compete NPS-wide for
            line item construction funds. Projects for less than $500,000 compete
            within a region for repair and rehabilitation funds. Other funding
            sources, with differing eligibility criteria, are available for cultural
            and natural resource protection needs. Park needs not addressed by
            these funding sources compete at the park level for Fee Demo
            revenues. NPS Program Project Call memorandums provide
            guidance for selecting and approving specific Fee Demo projects.

Project  Authorizing legislation separated the Fee Demo revenues into
Approval “80 percent” money to be used at the parks where collected and
         “20 percent” money available for use NPS-wide. Based on guidance
Process
            from the Assistant Secretaries for Policy, Management and Budget
            and for Fish and Wildlife and Parks, NPS established procedures for
            project approval. The approvals needed for 80 percent projects are
            outlined on page 30. The NPS Director and both Assistant Secretaries
            approve all projects funded with 20 percent money. Those projects
            over $100,000 must be submitted to the House and the Senate
            Committees on Appropriations for approval.




                                   29
Appendix 4
Page 2 of 2

                 NPS Fee Demo Program Approval Process
                         For 80 Percent Projects
                       (From Lowest to Highest Level of Approval)
 Projects $100,000 or Less;      Projects $100,000 to $500,000      Projects Over $500,000
 Projects $100,000 to $500,000
 For Replacement-In-Kind or
 Treatments to Protect Prior
 Investment
 Approval by Park                Approval by Park                Approval by Park
 Superintendent                  Superintendent                  Superintendent
 Review and Approval by          Review and Approval by          Review and Approval by
 Regional Director               Regional Director               Regional Director
                                 Review and Concurrence by       Review and Concurrence by
                                 Washington Area Support         Washington Area Support
                                 Office                          Office
                                 Approval by Associate           Review and Approval by
                                 Director for Administration     Development Advisory Board
                                 Approval by Director            Approval by Associate
                                                                 Director for Administration,
                                 Review and Approval by          Approval by Director
                                 Assistant Secretary for Fish
                                 and Wildlife and Parks
                                                                 Review and Approval by
                                                                 Assistant Secretary for Fish
                                                                 and Wildlife and Parks
                                                                 Review and Approval by
                                                                 Assistant Secretary for
                                                                 Policy, Management and
                                                                 Budget
                                                                 Review and Approval by
                                                                 Office of Management and
                                                                 Budget
                                                                 Approval by House of
                                                                 Representatives
                                                                 Subcommittee on Interior
                                                                 Appropriations
                                                                 Approval by Senate
                                                                 Subcommittee on Interior
                                                                 Appropriations




                                            30
                                                                    Appendix 5
Park Expenditures Not In Compliance with
                          NPS Guidelines

                               (Fiscal Years 1998-2000)
                                       Project        Costs of       Park
            Regions/Parks            Expenditures    Collection      Totals
   Intermountain Region:
   Bryce Canyon National Park             $17,711         $23,687      $41,398
   Dinosaur National Monument              21,542          81,250      102,792
   Grand Canyon National Park             782,910         584,692    1,367,602
   Grand Teton National Park                8,278               0        8,278
   Rocky Mountain National Park            11,043         195,085      206,128
   Yellowstone National Park              776,117         560,439    1,336,556
   Zion National Park                     471,666          37,717      509,383

   Pacific West Region:
   Golden Gate National                    47,041          83,667     130,708
     Recreation Area
   Mt. Rainier National Park               19,407         185,575     204,982
   Sequoia-Kings Canyon National           66,349          27,183      93,532
     Park
   Yosemite National Park                  44,850         244,036     288,886

   National Capital Region:
   George Washington Memorial                   0              0              0
     Parkway
   Prince William Forest Park                   0              0              0

   Southeast Region:
   Castillo de San Marcos National         72,155          33,915     106,070
     Monument
   Chattahoochee River National                 0          10,622      10,622
     Recreation Area
   Everglades National Park                29,444         169,788     199,232
   Mammoth Cave National Park              14,342         615,076     629,418

   Totals                               $2,382,855   $2,852,732     $5,235,587




                                         31
                                                                              Appendix 8
                         Status of Audit Recommendations
Recom        Status                              Action Requested
  1     NPS: Management         Please provide a plan of action to implement the
        Concurs; Additional     recommendation that includes target dates and officials
        Information Requested   responsible for developing strategies and taking action to reduce
                                the effects of obstacles to the timely completion of Fee Demo
                                projects.
  2     NPS: Management         Please provide a plan of action to implement the
        Concurs; Additional     recommendation that includes the target date and official
        Information Requested   responsible for amending the NPS Strategic Plan to include a
                                goal for Fee Demo Program accomplishment related to project
                                completion.
  3     NPS: Management         Please provide a plan of action to implement the
        Concurs; Additional     recommendation that includes target dates and officials
        Information Requested   responsible for establishing measurable Fee Demo Program
                                goals and objectives, developing accountability standards for
                                managers, ensuring current and accurate Program data, and
                                monitoring Program accomplishments.

        BLM: Resolved and       No further action is needed.
        Implemented
  4     NPS: Management         Please provide an audit program, revised Director’s Order 22,
        Concurs; Additional     and plan of action to implement the recommendation that
        Information Requested   includes target dates and officials responsible for developing
                                new standards and protocols to require adherence to NPS
                                guidelines for performing entrance station and campground
                                audits, internal reviews, and employee background checks.

        BLM: Resolved and       No further action is needed.
        Implemented
  5     NPS: Management         Please provide the clarification memorandum and a plan of
        Concurs; Additional     action to implement the recommendation that includes the target
        Information Requested   date and official responsible for clarifying Program Project Call
                                guidelines on the use of Fee Demo revenues for “permanent
                                subject-to-furlough” employee salaries and for work on
                                historical structures used for employee housing.
  6     NPS: Management         Please provide the audit program requiring periodic regional
        Concurs; Additional     monitoring of Fee Demo project expenditures, including charges
        Information Requested   to cost-of-collection accounts, to ensure expenditures comply
                                with NPS guidelines and a plan of action to implement the
                                recommendation that includes the target date and official
                                responsible.



                                          39
                              How to Report
                 Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
